<html>
<title> - FORTRESS AMERICA ABROAD: EFFECTIVE DIPLOMACY AND THE FUTURE OF U.S. EMBASSIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  FORTRESS AMERICA ABROAD: EFFECTIVE DIPLOMACY AND THE FUTURE OF U.S. 
                               EMBASSIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 23, 2008

                               __________

                           Serial No. 110-129

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
47-996 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 23, 2008.................................     1
Statement of:
    Grossman, Ambassador Marc, vice chairman of the Cohen Group; 
      Dr. Jane Loeffler, visiting associate professor at the 
      University of Maryland; John Naland, president of the 
      American Foreign Service Association; and Ambassador Thomas 
      Pickering, vice chairman of Hills and Co...................    12
        Grossman, Ambassador Marc................................    12
        Loeffler, Dr. Jane.......................................    20
        Naland, John.............................................    34
        Pickering, Ambassador Thomas.............................    40
Letters, statements, etc., submitted for the record by:
    Grossman, Ambassador Marc, vice chairman of the Cohen Group, 
      prepared statement of......................................    15
    Loeffler, Dr. Jane, visiting associate professor at the 
      University of Maryland, prepared statement of..............    23
    Naland, John, president of the American Foreign Service 
      Association, prepared statement of.........................    36
    Pickering, Ambassador Thomas, vice chairman of Hills and Co., 
      prepared statement of......................................    43
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     8
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Letter dated January 22, 2008............................    71
        Prepared statement of....................................     4


  FORTRESS AMERICA ABROAD: EFFECTIVE DIPLOMACY AND THE FUTURE OF U.S. 
                               EMBASSIES

                              ----------                              


                      WEDNESDAY, JANUARY 23, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2157, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Maloney, Lynch, Higgins, 
Welch, Shays, Burton, Platts, and Foxx.
    Staff present: Dave Turk, staff director; Davis Hake, 
clerk; Andy Wright and Janice Spector, professional staff 
members; Dan Hamilton, fellow; A. Brooke Bennett, minority 
counsel; Todd Greenwood, minority legislative assistant; Nick 
Palarino, minority senior investigator and policy advisor; and 
Benjamin Chance, minority clerk.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, 
``Fortress America Abroad: Effective Diplomacy and the Future 
of U.S. Embassies,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection.
    I ask consent that the hearing record be kept open for 5 
business days so that all members of the subcommittee be 
allowed to submit a written statement for the record. Without 
objection, so allowed.
    On behalf of the members of the subcommittee, I want to 
welcome our panel of highly distinguished witnesses who are 
with us today. We are going to discuss challenges--as well as 
the opportunities--for the future of U.S. Embassies and 
diplomacy with four uniquely qualified experts.
    We will examine not only the ramifications of the new type 
of Embassies that U.S. taxpayers are currently funding around 
the world--some call them ``fortress'' Embassies on the 
outskirts of towns--we will also evaluate the broader purposes 
of our diplomatic presence abroad. We will discuss how we can 
best maintain and improve our relations with foreign 
governments and the people those governments represent.
    Our diplomats put themselves in harm's way for all of us 
day and night. They live in every part of the globe, often in 
remote and austere places that are afflicted by poverty and 
violence. And they suffer casualties, like Tom Stefani of the 
Foreign Agricultural Service, who was killed by a bomb in 
Afghanistan last October, or John Granville, a USAID officer 
killed along with his driver earlier this month in Sudan.
    We all recognize the need for robust and effective 
security. Our people deserve it and our missions cannot be 
effective without it. At the same time, we have to recognize 
that the very effectiveness we seek to maintain with that 
security is threatened if the security measures are not 
carefully managed.
    Take the symbolism of the American Embassy itself. For 
generations, the sight of the American flag flying openly in 
the heart of foreign capitals and oppressive regimes gave hope 
to dissidents, relief to Americans abroad, and pause to many 
dictators.
    Stories are legendary of young people learning in American 
Embassy libraries and cultural centers who would later become 
leaders of their nations, with affection for the United States 
that they would never forget. Yet, our concerns with security 
have now led us to build new Embassy compounds of cookie-cutter 
boxes surrounded by walls located on the outskirts of towns.
    One magazine called our new Embassy in Iraq, for example, 
the ``Mega-Bunker of Baghdad.'' One of our witnesses today has 
referred to this phenomenon as ``Fortress America.''
    But $700 million Embassy Baghdad is not the only example. 
There are a number of others that we are showing slides of them 
up on the board right now.
    More and more, the American flag flies on the outskirts of 
foreign capitals, remote from daily life, from inside the 
fortified perimeter of a massive bunker. In the words of one 
commentator, ``These Embassies are the artifacts of fear.''
    My concern is that our diplomats are at risk of alienation, 
of becoming unable to communicate face-to-face with the very 
people they must try to understand and to influence. They are 
at risk of irrelevance.
    I don't think that anybody on this panel here today claims 
to have the answers for the very difficult questions that 
confront us: questions of safety, of costs, and of the best way 
to conduct diplomacy in this post-9/11 world.
    That is why we have assembled such an extremely great group 
of experts here for us to ask these tough questions and to 
learn from the collective years of experience, and personal and 
professional study that these witnesses have given.
    For example, if diplomats can't meet with their 
counterparts, travel the country and get to know people, what 
purpose do they serve? What is the symbolism of Embassies and 
what messages do they send to the host country and its people? 
What positive symbols should our Embassies be sending? Is the 
symbolism important? If so, how should this fact be reconciled 
with other considerations such as security and fiscal 
discipline?
    What are the best ways to protect those serving in our 
Embassies abroad? Do we need to focus not on risk avoidance, 
but on risk management? And how do we do that? How much does 
heavy security screening reduce casual traffic into American 
libraries or cultural centers on Embassy compounds? How 
significant is this and what creative options are there for 
acceptable substitutes?
    How can we best utilize and leverage advanced 
communications technology in pursuit of diplomacy, especially 
diplomacy focused directly on the people of a host nation?
    How is the U.S. Ambassador supposed to control and 
coordinate the activities of an ever-increasing patchwork of 
government agencies, especially the large increases of military 
personnel who do not report to the Ambassador, but to a distant 
theater combatant command?
    Should so-called ``American Presence Posts''--that is, 
small expeditionary-type offices with a single diplomat in 
remote, but significant, foreign cities--be a part of the 
diplomatic puzzle? If so, how can we best provide safety and 
the necessary manpower?
    If we do not have adequate numbers of language-trained and 
otherwise adequately prepared personnel to send on these and 
other missions--which the Government Accountability Office, 
among others, has documented--how do we get them?
    In sum, how best should the United States pursue diplomacy 
in the 21st century? And how can we ensure that we have this 
discussion before we spend more and more millions of taxpayer 
dollars on fortress-like Embassies or other activities that 
don't best serve our core and long-term national security 
needs?
    Defense Secretary Gates recently stressed, ``What is clear 
to me is that there is a need for a dramatic increase in 
spending on the civilian instruments of national security--
diplomacy, strategic communications, foreign assistance, civic 
action, and economic reconstruction and development. . . . We 
must focus our energies beyond the guns and steel of the 
military.''
    This sentiment about the dangerousness of our lack of 
investment in diplomatic resources and funding is gaining 
ground across party lines and ideologies. But how do we best 
set a goal to get from point A to point B, and just what should 
point B look like in operational form?
    In the end, I am confident that we can do the right thing 
and get the right balance of security and openness, of trained 
personnel and resources necessary to carry out the vital task 
of American diplomacy in the 21st century. But we first need a 
robust and open dialog among policymakers, experts, and the men 
and women who represent us abroad in the face of great personal 
sacrifice.
    I want to again thank our outstanding witnesses for being 
with us today. I look forward to learning from your expertise 
and your experience.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T7996.001
    
    [GRAPHIC] [TIFF OMITTED] T7996.002
    
    [GRAPHIC] [TIFF OMITTED] T7996.003
    
    Mr. Tierney. At this point, I would like to ask Mr. Shays 
for his opening statement.
    Mr. Shays. Thank you, Mr. Chairman, for holding this 
hearing, and welcome to our very distinguished witnesses.
    A determinant of U.S. success will be the size, scope, and 
skill of the U.S. diplomatic presence abroad. International 
economic, political, military, and cultural alignments are 
changing rapidly. Our diplomatic and interagency staff must be 
nimble to adapt to these realignments. Adaptability includes 
having the correct number of people and skill sets in our 
Embassies, and the ability to react to changes within a 
country.
    Members and staff of this subcommittee have had face-to-
face discussions with the men and women stationed in our 
Embassies. We hear reports of Ambassadors having little more 
than titular authority to manage non-State Department 
personnel. We have continued security concerns, which, in many 
instances, have led to limited mobility outside of the walls of 
the Embassy compounds. And, of course, we hear reports of 
Embassies in need of additional security upgrades both in terms 
of increased security for Embassy personnel and security of 
physical structures. Congress must address these concerns 
through continued oversight and potentially with new 
legislation.
    In 2002, the subcommittee began investigating the 
Department of State's right-sizing efforts. We wanted to make 
sure the United States was putting the right people in the 
right places and in the correct numbers necessary to meet our 
foreign policy goals. Our subcommittee held three hearings on 
this topic, including one in April 2003. The April hearing 
focused on the GAO's review of U.S. diplomatic presence to 
ensure the appropriate number and types of personnel were being 
assigned to U.S. Embassies and consulates.
    GAO found staffing projections for new Embassy compounds 
were being developed without a consistent systematic approach 
or comprehensive right-sizing analysis. GAO recommended the 
Department of State develop a standard format for projecting 
staffing requirements and ensure that staffing projects are 
validated within the Department.
    In June 2006, GAO reported State had either implemented 
GAO's recommendations or was taking steps to implement their 
recommendations. However, despite State's best efforts thus 
far, more work needs to be done and GAO's reports are useful in 
helping the State Department understand where they can improve 
their efforts. Further oversight by this subcommittee will be 
helpful, and I look forward to working with my colleagues on 
this subcommittee to achieve the necessary reforms.
    Mr. Chairman, we welcome all of our witnesses here today. 
We truly appreciate their time, their dedication and expertise, 
and I think we all look forward to their testimony. And I am 
going to try to stay to hear the testimony. I have a very 
important meeting that I have to get to, so if I leave before 
the conclusion, it is not that I think this isn't anything but 
a very important hearing. Thank you.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7996.004
    
    [GRAPHIC] [TIFF OMITTED] T7996.005
    
    Mr. Tierney. Thank you, Mr. Shays.
    Mr. Lynch, you want to make brief remarks, I understand?
    Mr. Lynch. Just brief remarks. Thank you, Mr. Chairman. I 
want to thank the ranking member. As well, I thank our esteemed 
panelists for coming before the committee to help us with our 
work.
    I am one who, over the last few years, has come to spend a 
lot of time in our foreign Embassies. I deeply appreciate the 
work being done by our State Department, Treasury, Defense 
Department, and I believe that it is really an investment in 
personnel that will cause the greatest improvement in our 
foreign policy. But there is definitely a need to provide a 
secure environment for our folks who work in our Embassies, one 
that provides security, but also allows diplomacy to occur and 
to get out into the communities in the cities and countries in 
which we are located. I will rely heavily upon you to tell us 
how to accomplish both of those goals and, I appreciate all the 
experience that is on this panel before us this morning. I am 
very interested in hearing your remarks. Thank you.
    Mr. Tierney. Thank you, Mr. Lynch.
    Mr. Burton, would you care to make opening remarks?
    Mr. Burton. No, I don't have any remarks, Mr. Chairman.
    I thought, Ambassador Pickering, weren't you in the private 
sector last time I saw you?
    Ambassador Pickering. I am still.
    Mr. Burton. You are. I mean, I thought you were out there 
making a lot of money, and I didn't know why you were back. I 
am just teasing. I thought you were out there having a good 
time, instead of working----
    Ambassador Pickering. [Remarks off microphone.]
    Mr. Burton. Oh, OK. Well, it is nice seeing you, 
Ambassador.
    I don't have any comments.
    Mr. Tierney. Thank you. We will bring you up to date on 
what the Ambassador is doing in one moment, as we introduce 
people here.
    We are now going to receive the testimony from the 
witnesses before us, and I would like to begin by introducing 
them with a little background on each one.
    Ambassador Marc A. Grossman has served as Under Secretary 
of State for Political Affairs from 2001 to 2005--and I guess 
if we add that with Ambassador Pickering, we really get from 
1997 all the way to 2005 in that position of Under Secretary of 
State for Political Affairs--as the Department's third-ranking 
official and its senior career diplomat. Mr. Grossman has also 
served as the Director General of the Foreign Service and as 
Ambassador to Turkey. He is currently the vice chairman of the 
Cohen Group and was co-chair of the Embassy of the Future 
Commission for the Center for Strategic and International 
Studies, which released its final report last year and which we 
will be discussing at length this morning.
    Dr. Jane C. Loeffler is an associate professor at the 
University of Maryland College Park and is the author of The 
Architecture of American Diplomacy and Fortress America. She is 
widely recognized as an expert on the history and cultural 
impact of U.S. Embassy design and construction. Dr. Loeffler 
holds a graduate degree in city planning from Harvard 
University and a doctorate in American civilization from George 
Washington University. She has also written and commented 
widely on the New Embassy Compound program and the U.S. Embassy 
in Baghdad.
    Mr. John K. Naland. Mr. Naland is currently president of 
the American Foreign Service Association, the professional 
association and union representing 28,000 serving and retired 
Foreign Service personnel. He is a career Foreign Service 
officer, commissioned in 1986, and has written and commented on 
diplomatic strategy on television and in the printed press. Mr. 
Naland is a former Army cavalry officer and has served widely 
in Latin America, State Department headquarters, and the White 
House.
    And, Mr. Burton, Ambassador Thomas R. Pickering has served 
as Under Secretary of State for Political Affairs from 1997 to 
2001. He has also served as U.S. Ambassador to Russia, Israel, 
India, Jordan, El Salvador, Nigeria, and the United Nations.
    Mr. Burton. Is that all?
    Mr. Tierney. About 5 minutes in each place.
    Ambassador Pickering is a former senior vice president for 
international affairs at Boeing and is currently vice chairman 
of Hills and Co. He is also affiliated with many non-
governmental organizations, including the International Crisis 
Group, the International Institute for Strategic Studies, and 
the Council on Foreign Relations.
    Welcome to all of you.
    Ambassador Pickering, you served a considerable amount of 
time in some of those locations as well. Was it 4 years in 
Jordan, 3 years in Israel?
    I want to thank all of you for your expertise and for your 
service, for those that have been in the Foreign Service.
    It is the policy of this subcommittee to swear you before 
you testify, so I ask you to please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please record that the 
witnesses all answered in the affirmative.
    Your written statements are going to be put in their 
entirety in the record and, Mr. Grossman, the report from your 
organization will also be placed in the record. Without 
objection, so ordered. We do have a 5-minute time limitation, 
as you will see on the lights there. We try to be a little 
generous with that because what you have to say is important 
and we want to hear as much as we can. Without trying to be 
rude, if we think you're going extremely over the 5-minutes, we 
may just interrupt and ask you to wind it up at that point in 
time.
    Ambassador Grossman, we would really like to hear your 
remarks at this time, please.

 STATEMENTS OF AMBASSADOR MARC GROSSMAN, VICE CHAIRMAN OF THE 
COHEN GROUP; DR. JANE LOEFFLER, VISITING ASSOCIATE PROFESSOR AT 
   THE UNIVERSITY OF MARYLAND; JOHN NALAND, PRESIDENT OF THE 
  AMERICAN FOREIGN SERVICE ASSOCIATION; AND AMBASSADOR THOMAS 
           PICKERING, VICE CHAIRMAN OF HILLS AND CO.

             STATEMENT OF AMBASSADOR MARC GROSSMAN

    Ambassador Grossman. Mr. Chairman, thank you very much. Mr. 
Shays and distinguished members of the subcommittee, it is an 
honor to testify here today concerning, as you said, Mr. 
Chairman, the recent Commission on the Embassy of the Future, 
which was sponsored by the Center for Strategic and 
International Studies.
    And may I just stop for a moment and thank everyone here 
for your interest in this subject. And I also heard in the 
opening statements also a very important point, which is the 
travel that you are doing, and the fact that members of this 
subcommittee get out and are at Embassies abroad and see people 
who are serving abroad. I know that the folks abroad appreciate 
that and I certainly do as well.
    If I could just talk a little bit about how this Embassy of 
the Future Commission came to be, I think it would provide, I 
hope, some context for our recommendations.
    The Embassy of the Future Commission started actually with 
the idea of the State Department, and I had the good fortune to 
be one of the co-chairs of the Commission, along with 
Ambassador George Argyros, who was Ambassador to Spain, and 
Ambassador Felix Rohatyn, who was the Ambassador to France. And 
because neither of my other co-chairs live in Washington, DC, I 
will do the best I can to represent them today.
    It is also worthwhile, I think, and you can see from the 
report, we had a very distinguished Commission. Ambassador 
Pickering was one of our commissioners, and I thank them for 
their effort. And I would also say that we had the good fortune 
to consult with Dr. Loeffler and a very lot of good cooperation 
from AFSA as well. So we thank everybody here and the 
organizations that we represent.
    Mr. Chairman, I very much appreciate the fact that you 
would put my written statement and the Commission's report in 
the record. I appreciate that.
    As I say, the study was conceived at the request of the 
State Department. The then Under Secretary for Management, 
Henrietta Fore was in touch with CSIS and she asked that 
organization if it might be possible for them to survey the 
State Department's program to modernize its Embassies and to 
make recommendations about how to improve the functions of the 
Embassies.
    I also want to say that the Commission study was funded by 
the Una Chapman Cox Foundation, which is a private foundation 
whose commitment is to better the life of people in the Foreign 
Service.
    And as the chairman said, we reported our findings to the 
State Department at the end of last year, including a briefing 
to Secretary Rice, and we made our findings public in October 
of last year.
    Mr. Chairman, I would tell you and members of the 
committee, that when CSIS first conceived of this report, they 
were focused on the buildings, and they envisioned it as a 
study that would examine the structures of the Embassy, 
because, as, Mr. Chairman, you said, there is a debate inside, 
outside the State Department about what these structures are 
all about. Do we have the right ones? Are they in the right 
place? How are they affecting the work of our diplomats.
    But as you said in your opening statement with all of those 
questions, our commissioners, once we got started, recognized 
that this agenda was much too narrow and that the issue was 
really how do you get the most effective foreign policy and 
diplomacy for the United States in the 21st century; and this 
came to us as an issue that was more fundamental, bigger, if 
you will, than the buildings themselves. And I am not saying 
the buildings are not important--and I look forward to the 
discussion today--but the issue for the Commission was how do 
you get diplomats ready to do the 21st century job. So that was 
the focus of our work. And if you would allow me, I will tell 
you a little bit about it and our recommendations.
    First of all, it is really important to recognize, as you 
did, Mr. Chairman, as Mr. Shays did and Mr. Lynch did, that the 
job that diplomats are doing today is changing. It isn't the 
same job that John Naland and Ambassador Pickering and I had 
when we joined the Foreign Service. It is now a job that has to 
do with activity. It is not just about reporting and sending 
back information for others to make decisions; it is about all 
the active things that our people are required to do, to get 
out to speak to individuals, to get out into societies.
    That is a different kind of job. It is a 21st century job. 
Sure, there are, as we said in the Commission, the traditional 
things will continue to be done. You have to go and visit the 
foreign ministry; you have to go visit the government. But if 
you are not out now with individuals and political parties and 
students, and in the culture of these societies, we believed, 
as a Commission, that we were missing a very big set of 
opportunities for the United States of America.
    So the first fundamental thing that the Commission dealt 
with was that the job of diplomats is changing. And we also 
recognized that the State Department, over the past few years, 
has started to make some changes. You see what Secretary 
Albright, Secretary Powell, Secretary Rice have done, but we 
concluded that much, much more needed to be done. And I would 
say, sir, that one of the things that we hoped to have in our 
report was the kind of report where people could open it up 
over at the State Department, start reading and say, yes, we 
could do these things. It isn't huge philosophy and a Ph.D. 
thesis on this, that, or the other thing; these are 
recommendations, 20 or 25 recommendations, that people could do 
if they had the will, and we hope that they will.
    These recommendations go like this. First, people. As Mr. 
Lynch said in his opening comments, we concluded that without 
the right number of people, everything else isn't going to 
work, and the Commission recommends the hiring, over the next 3 
years, of 1,079 new Foreign Service people; and the reason for 
that is that we believe the Department ought to have enough 
people to train people and to have people moving without having 
to have losses at the various Embassies. And as I say, without 
this, we believed, nothing else matters. So this number is a 
number that we believed in. We believe it is a good number and 
a number we could justify, but it is something we hope the 
State Department will move on, and I hope also with the support 
of the Congress.
    Our logic then went like this: if it was right, sir, that 
we needed more people, you can't just have more people; they 
have to do this new job. And to do this new job, they need two 
things. First, they need better training. So they need training 
in better security practices; they need training in the 
cultural affairs; they need more language training; they need a 
way to learn how to interact with these societies; and, second, 
that they need new technology. And the technologies that are 
out there in order to enhance the job of this new diplomacy are 
legion, whether it is BlackBerries or video conferencing or the 
Internet. These are ways that the State Department could 
communicate better with itself and also with other government 
agencies, but also, very importantly, out to societies.
    We said, if that is right, more training, more technology, 
then you get to the question of platforms, and we concluded 
that the State Department's building program is something that 
ought to continue; that people have a right to a safe, secure 
place to work where they are working; that the job is now to 
get them out of this Embassies and do the job outside of the 
walls. So, as you said, sir, American Presence Posts, American 
Corners Virtual presence posts. All these things are really 
important.
    If the platforms are more dispersed, what do you know? As 
the committee said, you need more authority, as Mr. Shays said, 
for Ambassadors, if people are spread out, the Ambassador needs 
the authority to run her or his country team.
    And a final point that I would make is the question of risk 
management. We concluded, as a Commission, that it is 
important, obviously, that people be protected. But you need to 
shift from a culture of risk avoidance to risk management. And 
as people are out farther into these communities, as they are 
in APPs, as they are in Virtual Presence Posts, what is going 
to happen? Well, you increase their risk. But they ought to 
have better training and better protection. But we are, as a 
society, going to have to deal with the question of pushing our 
people out into these societies and running the risk that more 
people will go into harm's way even further than they are 
today.
    Mr. Chairman, I see that my time is up, but we thought 
that, collectively, this issue of the right number of people, 
technology, training, platforms dispersed and distributed, more 
Ambassadorial authority, and a shift from risk avoidance to 
risk management would allow us to really say that diplomacy 
already is a vital tool of national security for the United 
States, but we hoped, as a Commission, to be able to enhance 
that thought and open it up for the opportunities that are so 
evidently available for the United States and the world.
    Mr. Chairman, I thank you very much for the opportunity to 
testify this morning.
    [The prepared statement of Ambassador Grossman follows:]

    [GRAPHIC] [TIFF OMITTED] T7996.006
    
    [GRAPHIC] [TIFF OMITTED] T7996.007
    
    [GRAPHIC] [TIFF OMITTED] T7996.008
    
    [GRAPHIC] [TIFF OMITTED] T7996.009
    
    [GRAPHIC] [TIFF OMITTED] T7996.010
    
    Mr. Tierney. Thank you, Ambassador. Thank you very much.
    Dr. Loeffler.

                 STATEMENT OF DR. JANE LOEFFLER

    Ms. Loeffler. Thank you, Mr. Chairman and Mr. Shays, for 
holding this hearing and inviting me to participate. The 
remarks I am making now are a summary of those that I have 
submitted for the record.
    I am not an architect nor a diplomat. I am a historian who 
studies architecture and public policy. My observations are 
based on 25 years of research into America's Embassy program 
and its impact on the international landscape. And there are 
pictures that go with this talk, if you want to be distracted a 
little. They will help.
    People ask if architecture really matters when security is 
such a huge concern. There is no better illustration that it 
does matter than Congress's instinctively correct decision 
after 9/11 to maintain the Capitol as its place of business. 
You might have relocated to a lower profile, less accessible 
setting, or retreated to home districts and chosen to 
communicate via teleconference, but you did not. You decided to 
conduct business here, adding as much security as possible 
without impeding the business of government or public access to 
government.
    During the Civil War, when he might well have stopped 
construction of the great Capitol dome, President Lincoln did 
not. ``When the people see the dome rising, he declared, it 
will be a sign that we intend the Union to go on.'' Lincoln 
recognized the power of architecture. Congress has recognized 
it. When it comes to America's presence abroad, we must 
recognize it too.
    Good design conveys good intentions. Well-designed 
buildings represent the best of modern technology, show our 
respect for countries that host us around the world, and 
proclaim our confidence in the future. Sadly, OBO's program, 
with its cookie-cutter approach to production--which you have 
mentioned, Mr. Chairman, conveys neither good will nor 
strength.
    To the contrary, it is dotting the global landscape with 
Embassies that resemble big box stores, only they are bigger, 
more isolated, and far more forbidding than any store designed 
to attract business or sell a product. And an SED does not 
belong everywhere any more than a Wal-Mart belongs in 
Georgetown.
    With globalization, when we face the world, we face 
ourselves, and what we see matters. The standard Embassy 
design, the SED, is an expedient solution that ignores the 
message it sends. More than that, it utilizes a design/build 
process that gives direct control to individual contractors, 
weakens the government's negotiating role, and minimizes the 
contribution of architects and other design professionals whose 
skills are needed now more than ever.
    For these reasons and more, experts warn that soaring 
maintenance costs will plague our new Embassies. Poor oversight 
and cut corners are bad news for those who have to live and 
work in such facilities, and for those who maintain them. It 
might be OK if these buildings were going to be replaced in 10 
or 20 years, like shopping malls here at home, but they are 
not.
    No one would argue that security should be compromised for 
aesthetic purposes, but as GSA has shown here at home, security 
is bettered by design excellence. A good overseas example is 
the new British Embassy in Yemen, which not only meets security 
requirements, but is also a model of sustainability in a desert 
climate. We can point to nothing comparable. Anyone who has 
seen the American flag flying atop U.S. Embassies in Prague or 
London knows what Lincoln meant when he compared the Capitol to 
a symbol of strength and a beacon of freedom. And that little 
arrow in the slide points to the American flag that flew over 
Prague all through the cold war and was considered a symbol of 
strength in that city and a beacon of freedom. It is in the 
picture, but it is hard to see.
    Are isolated Embassy enclaves really ``platforms for 
diplomacy,'' as some maintain, or just platforms for 
maintaining an overseas presence? Do such facilities support or 
undermine the expansion of public diplomacy, a key weapon in 
the war of ideas? Is a design formulated for Kampala really 
right for The Hague? These questions call for answers, and in 
seeking answers we would do well to be guided by the same 
thinking as those who strive to maintain the openness of the 
Capitol.
    Supreme Court Justice Stephen Breyer recently spoke out on 
this subject because of his concern that we are allowing 
security experts to make too many of our decisions about public 
buildings. ``We'll end up with buildings that look like our 
Embassy in Chile,'' he said, deploring it as a ``fortress.'' It 
is not just about money, he said, it is about finding people 
who will listen, who understand that Embassies make ``a 
statement that the United States is a democracy and not walling 
itself off from the world.''
    Former Ambassador to India, Daniel Patrick Moynihan, 
addressed these issues in 1999. Senator Moynihan saw 
architecture as a national policy issue and called for an 
ongoing conversation on how to balance security and openness at 
home and abroad. That conversation has not yet occurred, but 
with your help it can begin now.
    Thank you, Mr. Chairman. If, with your permission, I can 
have a few more comments that I would like to add to this 
statement.
    Mr. Tierney. Go ahead.
    Ms. Loeffler. One, on minimizing the role of--six comments. 
On minimizing the role of architects in the Embassy production 
process, it should be noted that OBO no longer even hires 
architects for individual projects. The exception are only the 
high-profile projects such as Berlin and Beijing. And they also 
abandoned the highly respected peer review panel that served 
the State Department so well between 1954 and 2004, in its 50th 
anniversary year, and, instead, created a panel of industry 
representatives who vied for OBO contracts and simply rubber-
stamped the director's policies.
    Two, architectural sophistication and cultural expectation 
are serious factors to reckon with. Both of these matter in 
places like Oslo or The Hague, both of which are slated to 
receive SEDs in the near future. These are not Third World 
countries with undeveloped infrastructure; they are places 
where historic preservation and urban design are taken 
seriously. We would not want to return to the architectural ego 
trips of the 1950's, but we must ask if a big box prototype 
will further our interest in Norway or The Netherlands.
    Three, design excellence can contain costs and enhance 
security, while standardization can lead to the opposite. One 
example, OBO buys all its windows from one vendor. They all 
meet the same specifications. That single window is engineered 
to withstand blasts at 30 meters, the minimum setback for all 
Embassy perimeter walls, but it is being used everywhere, even 
at distances far exceeding 30 meters. Large Embassy compounds 
have many buildings, some situated far from perimeter walls. 
This means that a costly fixture is being installed many 
places, where a less costly one would meet all requirements.
    Four, the future of Embassies, the right priorities are 
offensive, not defensive. It is far easier to spend money on 
security improvements to protect buildings than it is to devise 
and implement programs, such as those that Ambassador Grossman 
has cited, that might diminish the threat of attack and boost 
respect for America and what it stands for. After all, that 
should be our first priority. Unfortunately, it is easier to 
install more ballards of blast protection than it is to devise 
ways to make such barriers unnecessary.
    Five, programs designed to decentralize services and reach 
more people, such as those outlined in the CSIS report, will 
pose logistical challenges unmet by conventional solutions. It 
is worth asking whether the isolated fortress-like Embassy even 
provides the security it advertises if many diplomats must 
travel outside its confines to do their work and many employees 
live beyond its walls.
    And, six, Congress is the one that determines our face 
abroad. The only reason the building program expanded so 
dramatically in the 1950's was because it was funded through 
flows in counterpart funds, not new tax dollars. The only 
reason it expanded so dramatically in the last decade was to 
avoid a repeat of the tragic bombings of our Embassies in East 
Africa. That is reason enough to build better buildings, of 
course, but a country like ours can do better at what we are 
doing.
    Thank you.
    [The prepared statement of Ms. Loeffler follows:]

    [GRAPHIC] [TIFF OMITTED] T7996.011
    
    [GRAPHIC] [TIFF OMITTED] T7996.012
    
    [GRAPHIC] [TIFF OMITTED] T7996.013
    
    [GRAPHIC] [TIFF OMITTED] T7996.014
    
    [GRAPHIC] [TIFF OMITTED] T7996.015
    
    [GRAPHIC] [TIFF OMITTED] T7996.016
    
    [GRAPHIC] [TIFF OMITTED] T7996.020
    
    [GRAPHIC] [TIFF OMITTED] T7996.021
    
    [GRAPHIC] [TIFF OMITTED] T7996.022
    
    [GRAPHIC] [TIFF OMITTED] T7996.023
    
    [GRAPHIC] [TIFF OMITTED] T7996.024
    
    Mr. Tierney. Thank you, Doctor. You found a unique way to 
get around the 5-minute rule, and I commend you for it.
    Ms. Loeffler. I am sorry. I was put up to it by----
    Mr. Tierney. We are really appreciative of it; we wanted to 
hear what you had to say. But whenever I see colored paper 
hidden underneath the white statement, I am going to know what 
is coming from now on.
    Mr. Naland, please, your remarks will be welcome.

                    STATEMENT OF JOHN NALAND

    Mr. Naland. Thank you, sir. Mr. Chairman, subcommittee 
members, the American Foreign Service Association welcomes this 
opportunity to discuss the future of U.S. Embassies. We are 
grateful to you for convening this hearing. In fact, we are 
grateful for any interest given to diplomacy and development 
assistance.
    Our Embassies are bricks-and-mortar platforms for 
projecting U.S. influence in foreign lands. As such, their 
design, location, and accessibility certainly matter. But as 
the CSIS Embassy of the Future report stresses, diplomacy is 
foremost about people: our diplomats and their capacity to 
carry out their missions. Thus, I will focus on the human 
element of the Embassy of the future.
    The Foreign Service is a worldwide available corps of 
professionals with abilities essential to foreign policy 
development and implementation. Foreign Service members need to 
possess a range of abilities, including foreign language 
fluency, area knowledge, management skills, public diplomacy 
skills, and job-specific functional expertise.
    Unfortunately, due to chronic understaffing and chronic 
under-investment in training, the Foreign Service at State and 
USAID has long been shortchanged on many of the prerequisites 
for its own effectiveness.
    For example, recent data show that the Foreign Service is 
below 85 percent staffing, short 1,015 positions for overseas 
and domestic assignments, and short 1,079 positions for 
training, transit, and temporary needs. A 2005 GAO report found 
that 29 percent of language-designated positions were not 
filled with language proficient staff.
    As a result of understaffing and under-investment in 
training, today's Foreign Service does not have to a sufficient 
degree the knowledge, skills, and abilities needed for 
diplomacy and foreign assistance. Future U.S. diplomacy will 
suffer unless the White House and Congress views staffing our 
Embassies as being no less vital than staffing our military 
units. Future diplomacy will suffer unless professional 
development of our diplomats is seen as being no less vital 
than the professional development of our military.
    If calling for more resources seems self-serving coming 
from the president of AFSA, please let me quote also recent 
remarks of the Secretary of Defense, Robert Gates: ``The 
Department of Defense has taken on many burdens that might have 
been assumed by civilian agencies in the past. The Military has 
done an admiral job, but it is no replacement for the real 
thing--civilian involvement and expertise. What is clear to me 
is that there is a need for a dramatic increase in spending on 
the civilian instruments of national security.''
    Secretary Gates clearly recognizes the value of a well-
staffed and well-trained diplomatic corps. Thus, as we think 
about the Embassy of the future, we must not lose sight of the 
human dimension. Future U.S. diplomacy will suffer unless human 
capital deficits are addressed.
    No matter how well trained U.S. diplomats are, their 
effectiveness will be limited if they are unwilling or unable 
to get out beyond the Embassy walls to conduct face-to-face 
diplomacy. Fortunately, the Foreign Service has a proud 
tradition of working the alleys and offices of dangerous 
foreign cities to promote U.S. interests. But our diplomats 
face an ever-growing shadow of political violence. Just this 
month, USAID officer John Granville, from Mr. Higgins' 
district, was brutally assassinated in Sudan and a U.S. Embassy 
vehicle was bombed in Lebanon.
    I have full confidence that my colleagues will continue to 
volunteer for dangerous assignments and will get out beyond the 
Embassy walls to interact with foreign publics. To do so, 
however, they need more training and full staffing. For 
example, a diplomat who lacks fluency in the local language may 
well be hesitant to make contact with a wide variety of 
segments of the local society. A diplomat who received a 
fraction of the physical security training that is routinely 
given to intelligence community officers may well feel ill at 
ease going out to meet a contact. An Ambassador with an 
understaffed security office may be unable to safeguard the 
members of his or her mission. Thus, before existing security 
procedures are revised in the name of risk management, these 
training and staffing gaps must be closed first.
    Finally, I must mention an ever-growing disincentive to 
service abroad that threatens the long-term health of the 
Foreign Service and, with it, the future of U.S. diplomatic 
engagement. I refer to the exclusion of overseas Foreign 
Service members from receiving the locality pay salary 
adjustment given to other Federal employees. Groups such as the 
intelligence community officers receive the same basic pay 
overseas that they receive while in the United States. However, 
our Foreign Service currently takes a nearly 21 percent cut in 
base pay when they transfer abroad.
    Both AFSA and the Bush administration are seeking a 
legislative correction. I thank Representative Van Hollen of 
this subcommittee for his support in trying to solve the 
problem. I encourage others to follow suit.
    Thank you again for holding this hearing.
    [The prepared statement of Mr. Naland follows:]

    [GRAPHIC] [TIFF OMITTED] T7996.025
    
    [GRAPHIC] [TIFF OMITTED] T7996.026
    
    [GRAPHIC] [TIFF OMITTED] T7996.027
    
    [GRAPHIC] [TIFF OMITTED] T7996.028
    
    Mr. Tierney. Thank you, Mr. Naland. I think we have all 
quoted Secretary Gates a little bit here, but I think one of 
the more interesting comments at the end of that expression was 
that he thought that he would be happy to transfer some of his 
budget--which is almost $700 billion this year--to these other 
causes, and if we are starting to think about smart power and 
some of the other hearings that we have had in front of this 
panel that may be something we all should take a look at, re-
allotting some of that money so that we get the best national 
security posture out there, using all of our resources.
    Ambassador Pickering, please.

            STATEMENT OF AMBASSADOR THOMAS PICKERING

    Ambassador Pickering. Thank you, Mr. Chairman and members 
of the committee. It is an honor to be asked to speak with you 
today about the Embassy of the future in its broadest possible 
context.
    I want to try to take the view from 30,000 feet, having 
just come from the aviation industry, and talk a little bit 
about the conditions which I think shape the focus that you 
have on the Embassy of the future, some of the steps that I 
think need to be taken to make our diplomacy more efficient 
both from Washington and the field.
    Certainly, everything that I mention here as a problem 
facing the United States is interconnected as never before. 
Each of these issues is related one to the other and has an 
influence on the other.
    I think that we have never faced more difficult problems in 
our history than we do now. I would note, to begin with, that 
globalization itself has changed the focus of diplomacy and its 
role. And, unfortunately, while it has benefited many, it has 
left many more impoverished.
    We also have, obviously, a leadership role to play in the 
international community, given our unrivaled power as an 
economy and in the military area, and we are seeing today some 
of the influences of changes in our economic situation around 
the world, as well as new and old states failing. We have 
specific new challenges with states like China, India, and 
Russia, which can become partners or protagonists, depending 
upon how our diplomacy deals with them. Similarly, we, with the 
United Nations and others, have a major role to continue to 
prop up and help states in Africa and elsewhere which need 
assistance and help, states which, if we are successful, can 
move to managing these problems on its own.
    Terror will continue to be a tactic widely used against our 
friends, ourselves, and our partners around the world. And we 
have challenges in the health field with HIV/AIDS, with TB, 
with malaria, with SARS. Just a few months ago we might have 
happily ignored some of the interconnectedness of our economies 
around the world. Today, as I just mentioned, the sub-prime 
crisis and its ramifications is not going to let us forget 
that. And nuclear weapons and other weapons of mass destruction 
remain major problems for us, just to list a few on the row.
    Our role in the world, which I mentioned a moment ago, will 
continue, I believe, to be foremost. We may be challenged over 
time by individual states or coalitions, and even while we 
occupy this particularly significant position, we are not 
omnipotent. Much of what will have to be done in the world will 
be accomplished by diplomacy, working and acting with other 
states. Where we choose to lead, we will be very, very 
significant, perhaps in some ways the vital party in that 
effort. Where we choose not to lead, we will be a vital player 
in making things happen. And where we choose to oppose, we have 
an enormous possibility of making sure that things don't 
happen.
    The result is that while we may have been in an unipolar 
moment for a fleeting time in the last decade, what is true for 
the future is what we will need cooperation, and leadership and 
diplomacy is the hallmark of that. Force is important, but it 
will not solve all our problems, as we have found out. And, in 
fact, diplomacy not backed up by the use of force is going to 
be increasingly ineffective. At the same time, the most 
important value of force is to be there, but not have to be 
used; and diplomacy can play a role in making that happen.
    What makes for successful diplomacy for us is the careful 
integration of our people, of our policies, and our presence 
around the world, and that is what your hearing is all about. 
Without these factors operating smoothly and together, the 
ability to deliver in the field, out at the spear point, in the 
Embassies will be certainly less than ideal.
    Our Embassies and our missions represent us with people, 
with organizations, with countries and nations around the 
world, and as Marc has pointed out, this particular, most 
dynamic aspect of our diplomacy has increased over the last 10 
years in ways that we never foresaw back at the end of the last 
century.
    Even more important than the posts themselves, the physical 
fabric of which, as you pointed out, Mr. Chairman, is 
emblematic of our country, are the people who serve us there. 
These two are inextricably intertwined and, indeed, I think it 
would be safe to conclude that good people in poor buildings 
are far and away much better than the opposite. Not that any of 
us would recommend that we not provide the kind of excellent 
facilities and tools to do the job that make good people even 
more effective in our national interests.
    There are specific recommendations in many of the reports 
that you will see that are before you and that are very 
important. I would just mention, in summing up, a few.
    In Washington, we need to find new ways to bring our 
government together. Too much stovepiping has once again 
resumed. The 1947 National Security Act was designed to try to 
find ways to prevent that. If our departments and agencies 
aren't working together, our diplomacy in the field can be much 
less effective.
    The State Department itself now has an unusual opportunity 
to bring new and, I think, important changes to bringing our 
diplomacy together. We now look at diplomacy in four fields: 
our traditional diplomacy through Embassies, our public 
diplomacy, our development diplomacy through AID, and our new 
efforts to provide for stabilization and reconstruction. They 
all should go ahead in my view, under the umbrella of the 
Secretary's leadership.
    There are many challenging and complex tasks to be 
performed in this area. The fact is that the most vital for you 
and the most vital for us in seeing how this work can be 
carried out by our Embassies in the field is the funding issue. 
It has been mentioned before, and I want to reiterate to you 
again, that neither our Embassies nor our diplomacy at large, 
and all the various aspects of that, can be successful if they 
are not funded in ways that bring together and make more 
synergistic and capable those people who have to do that job 
overseas.
    My written statement contains many recommendations; I won't 
repeat them here. I will just say that it is an honor and 
pleasure to be asked to come, and I look forward to addressing 
your questions.
    [The prepared statement of Ambassador Pickering follows:]

    [GRAPHIC] [TIFF OMITTED] T7996.029
    
    [GRAPHIC] [TIFF OMITTED] T7996.030
    
    [GRAPHIC] [TIFF OMITTED] T7996.031
    
    [GRAPHIC] [TIFF OMITTED] T7996.032
    
    [GRAPHIC] [TIFF OMITTED] T7996.033
    
    [GRAPHIC] [TIFF OMITTED] T7996.034
    
    [GRAPHIC] [TIFF OMITTED] T7996.035
    
    [GRAPHIC] [TIFF OMITTED] T7996.036
    
    Mr. Tierney. Thank you all very much. We are all pleased to 
have such great expertise and experience before us.
    We are going to move on to the question period here. We are 
under a 5-minute rule; 5 minutes for the questions and answers. 
With the number of people here, I am certain that we can 
probably have more than one round, and hopefully get some good 
information on the record and for our information.
    Let me, if I might, just begin by asking everyone, except 
Dr. Loeffler, the question of what your opinion is of the types 
of standard buildings that are now going up, like the one in 
Baghdad and others?
    Ambassador Grossman, did your report make any 
recommendation with respect to the design and the architecture; 
whether those should continue as are or whether they should be 
done on a different basis?
    Ambassador Grossman. Yes, sir, Mr. Chairman. Thank you very 
much for the----
    Mr. Tierney. You will have to put your mic on, I am sorry.
    Ambassador Grossman. Thank you for the question. First, let 
me say that I think, from the perspective of the Commission, we 
decided that Baghdad was unique, that if we spent our time 
figuring out whether Baghdad was right, wrong, or indifferent, 
that it would distort the recommendations of the Commission. So 
I tell you that we did not take a position on Embassy Baghdad, 
and I just want to be clear about that.
    But, yes, sir, there was a huge conversation that went on 
in the Commission about the Embassies, and here is what we came 
to as a recommendation. First of all, we believe that the State 
Department building program ought to continue; that people have 
a right to be in a building that is safe and secure and 
efficient; and in countries in which the United States of 
America is represented, people ought to have that kind of a 
building. But we said that it should do so under a certain 
number of considerations.
    First of all, that the Department has to take the approach, 
as Dr. Loeffler said, to combine the questions of security and 
design; and we felt that there were new ways to do that.
    Second, we also believe that the Secretary of State should 
be the person who, in the end, had the capacity to decide where 
Embassies should be located. And there is a huge debate going 
on in the Department about where these things should be, and we 
thought the Secretary herself or himself should be able to make 
that decision.
    Third thing we said was that as she, currently, as the 
Secretary of State makes that decision, that a key factor is 
that locations remote from urban centers ought to be avoided 
wherever possible. We recognize that there were sometimes when 
that wasn't going to be possible, but as a principle we thought 
that the remote locations were a disadvantage to our diplomacy.
    Next, we in the Commission said that there are 
architectural features and new ways in thinking about 
architecture that ought to be included in these design features 
that meet, as we said in the Commission, security needs and are 
consistent with the American values of openness. Because, as 
you said, sir, one of the things that we were worried about is 
that we give off this sense of fear.
    And I would just, as a parenthesis, if I could, recognize 
that it isn't just the new buildings. If you go to Embassy 
London, for example, today, or Embassy Paris today, those are 
buildings that have been there a long time, but they also now, 
I think, give off this sense of a closed or closing American 
society.
    One other important point, and that is that we also 
highlighted--because it shows the importance of American 
values--that these Embassies ought to be at the leading edge of 
environmental standards, and that this is a LEED standard, as 
it turns out. There is am Embassy in Sophia now that meets 
these standards, but more and more ought to do that because it 
shows the U.S. commitment to those values as well.
    Thank you, sir.
    Mr. Tierney. Thank you, Ambassador.
    Ambassador Pickering, you were on that group, so I assume 
that you either filed a dissent on this or you are in full 
agreement with Ambassador Grossman.
    Ambassador Pickering. I am in full agreement with what the 
committee reported on the Commission report, and I had two 
thoughts that I think ought to be considered by you all as you 
look at this question.
    One is that it seemed to me lamentable that we didn't do 
two things with the standard box: that we didn't submit it to 
an architectural contest and we didn't provide that the 
standard box could have different facades in different places; 
that is, standard interior, standard security, but maybe a 
public face that was more appropriate to the location where it 
was being put and more appropriate to being symbolic to the 
United States of America.
    The second issue is what I would call the hidden hand of 
funds. I mentioned it a moment ago. But we all know that 
location was not just a question of security, but how much 
money we had to spend. And while obviously buying a large 
expansive property in the center of Tokyo would be, I think, 
wildly expensive, beyond the range of comprehensive, I know in 
a couple of cases--because I worked on them when I was Under 
Secretary--had we been able to have more funding, we could have 
provided more setback closer to the center of the city. We 
could have been a park-like structure, but accessible to the 
people who needed to have access. And there I agree with Marc, 
we need to provide different kinds of access for different 
functions within the standard Embassy compound. To the extent 
that we can do that, I think it would go a long way.
    But those are two or three personal ideas.
    Mr. Tierney. Thank you.
    Mr. Naland, do you have any comments on that?
    Mr. Naland. Yes, sir. The life of the rank and file Foreign 
Service, I believe, is that beggars can't be choosers. After 
the Beirut bombings in 1983 and 1984, there was a flurry of 
discussion about the need for secure Embassies, but then 
funding never came. So after the tragedies in Nairobi and Dar 
es Salaam, the Foreign Service was just ecstatic that the 
Congress, year after year, has appropriated funds for Embassy 
construction. So I think we were just so overwhelmed that the 
Congress was going forward with the funding that perhaps that 
is where people like me kind of stop thinking about the issue.
    The President nominated, and the Senate confirmed, a very 
strong-willed person to head the overseas building office. He 
pushed through a lot of construction that we are very thankful 
for. But now that he is gone, perhaps it is a time to ask some 
of these questions, and the issue of funding is critical. We 
need a new Embassy in Mexico City, but to buy a square block in 
Mexico City, let alone Tokyo, would cost a lot of money.
    So I totally agree that we need to look at this more. I 
just hope that the funding continues. And if more funding is 
needed to buy land in the middle of the center of a city, then 
we will need that funding.
    Mr. Tierney. Thank you.
    Doctor, we are going to give you a chance to fit back 
later, but it was basically your work that we were commenting 
on, so I hope you don't feel left out on that.
    Mr. Burton, 5 minutes.
    Mr. Burton. Thank you, Mr. Chairman. I won't take the full 
5 minutes. I have been to a lot of our Embassies around the 
world. I have been on the Foreign Affairs Committee for about 
25 years, and it seems to me that the architectural aspect is 
nice, but security is much more important. You know, I think 
about--when you mentioned Lincoln a while ago, Ms. Loeffler, 
you know, they used to be able to walk in the White House and 
wait for the President, get an appointment and go in and see 
him, and he used to walk down the street. Harry Truman used to 
walk down the street doing his exercise. You can't do that any 
more. So the world has changed dramatically. And it seems to me 
that the most important thing is to have security for our 
people, architecturally pleasant if possible, but it should be 
primarily of concern that we have security for the people.
    It seems to me a more important issue, in addition to the 
buildings being secure so that the attacks can't be successful 
in killing personnel in the Embassies, is that we have more 
trained and better trained personnel. You said you are short 
over 1,000 people. It seems to me better trained personnel--and 
you can all comment on this--better trained personnel and more 
personnel who have the ability to bring leaders in these 
various countries into the Embassy, if it is not safe to go 
outside, and to discuss with them issues that are very 
important as far as our relations with those countries.
    You mentioned going out and shopping in the areas, and 
those sorts of things, and that would be nice, but being 
realistic in this world, it is very difficult to see that 
accomplished. So it seems to me, of all the things you were 
talking about, security is No. 1; and, No. 2, making sure we 
have diplomats that are conversant with the culture, 
knowledgeable about the various dialects so they can 
communicate knowing about the people who are leaders in the 
community so they can bring them in and discuss the issues of 
major importance so that we have much better relations. Those 
are just my observations, but I would be happy to hear what you 
have to say about that in your comments.
    Mr. Tierney. To whom are you directing that, Mr. Burton?
    Mr. Burton. Any of them. Ms. Loeffler, you can go back to 
Lincoln, if you want to.
    Ms. Loeffler. Well, I can't go back that far. I totally 
agree with you that we have to be protected and that the world 
has changed. We are dealing with a very changed circumstance, 
for sure. I only want to point out that, really, architecture 
and security are not mutually exclusive. What I am talking 
about, they can support one another. And, in fact, you can take 
examples of even a sustainable design, for instance, such as 
Ambassador Grossman mentioned. If you could have an Embassy be 
self-sufficient, if it could have its own energy supply, if it 
was able to recycle and so forth, it could be a safer place; it 
wouldn't be dependent, it wouldn't be--if, God forbid, it were 
taken over, as some of them have been, people wouldn't be 
suffering for lack of water and so forth. That sort of thing. 
There are lots of advantages in trying to be self-reliant and 
also energy efficient.
    But the main thing is that security can be augmented. And 
in these places, such as Ambassador Pickering mentioned, where 
the land is difficult to come by, it takes even more creativity 
to figure out how to provide security in a place which maybe 
doesn't have 15 acres to work with. So you really need more 
creative decisions and input to accomplish those security 
goals, which are, as you said, the most important.
    Ambassador Grossman. Mr. Burton, thank you very much. I 
just wanted to agree with the points that you made. As I said 
in my opening presentation, our logic was that if you don't 
have the right number of people, all the rest of this is not as 
relevant. And we felt that the number 1,079 was a defensible 
number for precisely the numbers that you said, is that it 
would allow for people to have better training, not just in the 
languages and the culture, but also in security. And so the 
logic of the report is you have to deal with the people 
question first; training and risk management; and then the 
building issue is part of this 21st century diplomacy. Security 
is obviously crucial, but as you said and others have said 
before you, it is the people.
    And you are not talking about that much money. We took a 
look at the resource implications in the report, and if you 
were to set out today to hire 1,079 people over 3 years, it is 
$198 million. I am not saying that is not a lot of money, but 
in the comparison of what else we do as a country, if you could 
solve this State Department personnel problem for $198 million 
over 3 years, I think it would be something well worth doing.
    Mr. Tierney. Thank you.
    Mr. Naland. Sir, speaking as the union guy representing the 
Foreign Service, I just have to say that perfect security is 
always going to be impossible. You read a profile of someone 
like Ambassador Ryan Crocker, and no matter where he has been, 
whatever tough city it has been, he has always managed to sneak 
out the back door of the Embassy to go down to meet with his 
contact to figure out what is going on. Maybe he is not doing 
that today, but as a junior officer and a mid-level officer. So 
we need a Foreign Service that does that, that does take risks.
    The absent memorial plaque has 225 names on it of people 
who have died in the line of duty and, unfortunately, there are 
going to be more as years go on. But we have to get outside the 
walls. Give us the securest walls you can. Give us diplomatic 
security agents and obviously intelligence community colleagues 
to get an idea what is going on out there, but at some point 
there is a continuum with kind of, you know, domestic Civil 
Service employees on one side and maybe Navy Seals on the other 
end, and the Foreign Service is more in the military continuum; 
they are not at the Navy Seal end, but we are in harm's way and 
we need to be in harm's way. Reasonable risk, obviously, but 
speaking as the union guy, I am not going to say, you know, put 
us all in Wichita, KS and we will be safe. We have to be out 
there.
    Mr. Tierney. Thank you. In a conversation we had before the 
hearing, Mr. Burton, I think Ambassador Pickering put it right; 
he said the best security is to have no Embassy at all.
    Mr. Lynch, you are recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Naland, it is ironic that you mentioned Ambassador 
Crocker. I was with him last week in Baghdad and he mentioned, 
as well, that he was stationed in Beirut when the Marine 
barracks were bombed. So while you emphasize the need for some 
flexibility for the Ambassador to move around, there is also 
some instances, glaring instances of the need for greater 
security. I wanted to ask you about the idea of these American 
Presence Posts. This is an initiative that is cited in the 
report The Embassy of the Future. I gather it is an initiative 
begun under Ambassador Felix Rohatyn, and this is what an 
American Presence Post is, the establishment of a small office 
with one diplomatic officer and a small number of locally hired 
staff placed in more remote areas in some of these countries.
    And having just come back from Lebanon and Afghanistan and 
Pakistan, I am concerned that these APPs are just another word 
for hostages. It would be, I think, extremely, extremely risky 
to use something like this, given the current environment, and 
I just have some real misgivings about this, and hoping you can 
help me with this, any of you who have foreign Embassy service, 
especially Ambassador Pickering. You have had a fair share of 
it yourself. How do you think this thing would work?
    Ambassador Pickering. Mr. Lynch, I am glad you raised the 
question, and it is an important one. I was an early supporter 
of it; I worked with Marc Grossman with Ambassador Rohatyn in 
setting up the post in France. If you ask me should we do the 
same in Iraq or Afghanistan, I would say no. I would be 
certifiably loony to do that. But there are a number of places 
around the world where the threat is more moderate, where we 
have large cities. When I served in Nigeria, we had something 
like six cities over a million. No one American could name even 
three of them. But they were extremely important for what was 
going on in the country, they helped to set the political tone, 
they stimulated the economy. There are cities in China, many of 
them, like that, where we have almost no contact.
    Ambassador Rohatyn proceeded with this and we, in fact, 
used that particular approach, which was low key; apartments in 
upper stories connected with a small office, basically very few 
office calls on the individual. The individual was out and 
around. But the mayor knew them, the head of the local French 
Department knew them, the business community knew them, the NGO 
community knew them, the American community knew them; and they 
were extremely important. We gave them no classified work to 
do. If they had anything that was classified, they could take 
the train to Paris and spend a day at the Embassy.
    I wanted to do that in a number of places in Russia where 
we had very low coverage. I faced the problem that, in order to 
do that, we had to come to the Congress to set up a consulate. 
That was a year and a half or 2 year proposition, and as soon 
as we mentioned that, I had 35 American agencies who all wanted 
to assign people to that one-man post.
    We have gotten away from those. We would obviously watch 
the security very carefully. We would train the individual, as 
Marc's report has discussed, in the best security practices of 
the U.S. Government wherever they are, as John Naland said, 
drawing on some of our colleagues' training from the 
intelligence community. We would use local employees to help us 
understand and there would be absolutely no prohibition on the 
individual leaving, going to ground, or finding other premises 
if there were a peak-up in security problems; and that would be 
something we would watch very carefully with the intelligence 
community.
    And we think that in two-thirds of the world, at least, all 
of those places where we are not now restricting, say, families 
for security reasons, these kinds of posts would do a great 
deal. And Ambassador Rohatyn put it very, very clearly, he 
said, I am willing to give you the people from my Embassy 
complement because I feel these are 100 percent more productive 
than they are working here in the Embassy compound in Paris. 
And, indeed, that has been the significance of this and it is 
the reason why we have supported it.
    Mr. Tierney. Thank you, Ambassador.
    Thank you, Mr. Lynch.
    Mr. Higgins, you are recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Just in reading and 
listening to the testimony, I am struck by the emphasis on 
physical plants, on infrastructure. And while there seems to be 
a reference to the human infrastructure that represents 
American diplomacy, there certainly should be, I think, much 
more. I think America's problem today is not necessarily Iraq, 
it is not Afghanistan; it is America's isolation in the world. 
We are in these places virtually on our own. Sure, there are 
other countries that are represented there, but 
disproportionately. America's presence is profound.
    In traveling to Afghanistan and Pakistan with Mr. Lynch and 
Mr. Platts late last year, I was also struck by the American 
military and their emphasis not only on their military duties, 
but more on the humanitarian aspect of their job. I think that 
is very, very refreshing. And you weren't hearing necessarily 
from diplomats, but from the military personnel themselves that 
their mission is equal parts humanitarian and equal parts 
military.
    And when we talk about buildings and fortresses, reference 
was made to Daniel Patrick Moynihan, who was a great admirer of 
American architecture, primarily because architecture says 
something about a community; it says something about a nation. 
And I think when you look at these fortresses that represent 
American Embassies throughout the world, it conveys a sense of 
isolation. And in diplomacy, what it is you need is 
constructive engagement. You know, the author Fareed Zakaria 
has said, in diplomacy, style is the substance.
    I know that it was referenced in the chairman's opening 
statements, and Mr. Naland's as well, about John Michael 
Granville. John Michael Granville was not only a constituent, 
he was a kid from the neighborhood. He grew up a couple of 
streets away from me. And I spoke with his mom a couple of 
times on New Year's Day. John was murdered coming home from a 
New Year's Eve party at the British Embassy in Khartoum. He was 
shot five times. He died about 3 hours after the incident, and 
his driver was killed instantly.
    But it was amazing, you know, his mom's admonishment to me 
as a representative of the U.S. Government, don't feel sorry 
for us that her son, who she spoke with the night before, 
always said that the importance of his work, the importance of 
his work--peace and reconciliation--in this particular case 
trying to reconcile the peace agreement, the 2005 peace 
agreement between Northern and Southern Sudan, after 21 years 
of bloody civil war--but the importance of his work far 
outweighed the danger of it. While a family was grieving, a 
Nation and a community was grieving, there was also this sense 
of purpose that John Granville's life had represented, and I 
think it was an extraordinary testament to the great work that 
diplomats are doing throughout the world.
    John was with the Agency for International Development, 
U.S. Agency for International Development, but when you look at 
what is happening at places like Darfur and other places in the 
continent of Africa and other places in the Middle East, it is 
these kinds of people, that are doing the work of peace and 
reconciliation, who are most susceptible to violence. It is 
them, it is the non-governmental organizations. Because I think 
when they are doing important work in tough neighborhoods, they 
become most susceptible to violence because they are truth 
tellers. And when you look at what is happening in Darfur, the 
last thing the Sudanese government wants is westerners to tell 
the rest of the world what is really going on there. And 
journalists and humanitarian workers and diplomats are thus 
susceptible to extraordinary, extraordinary violence.
    So your thoughts on those things. And thank you for being 
here.
    Mr. Tierney. To whom are you directing your comments? 
Because there won't be enough time, I don't think, for anybody 
to respond to that.
    Mr. Higgins. However far it gets.
    Mr. Tierney. All right, Ambassador Grossman.
    Ambassador Grossman. Mr. Higgins, I certainly won't be as 
eloquent as you in talking about these issues or about Mr. 
Granville, but if I could just make three points, I think.
    First, like with Mr. Burton, I agree with you completely 
that the issue here is about the people, and Mr. Lynch said 
this in his opening statement. As I said in my statement, this 
Embassy of the Future project started with people thinking 
about it is going to be about the buildings. And the buildings 
are important, but it is not about the buildings. It is about 
the people. And it is about, sir, as you said, the jobs that 
these people do. And what we tried to convey in our report is 
that the job is changing, and that it isn't the same job that I 
joined when I started in the Foreign Service and popped out 30 
years later in retirement. But it is a different job, and a job 
that Mr. Granville is doing and others were doing. So it is 
about the people. And then it is about if you have the right 
number of people, you can have the right technology and the 
right training, and then you can have the right kind of 
platforms and, very importantly, about security.
    Second, I think this issue that you raised, sir, about how 
the military is thinking about its job in a new way is very 
relevant to the point that John Naland made earlier, and my 
suggestion to you, or my proposition, is that 4 or 5 years from 
now we are going to continue to see the lines intersect between 
what our military forces are doing and what our diplomatic 
forces, if you would allow me, are doing; and that it won't, 
sir, be, as John said, we are not all going to become Navy 
Seals. But the job of representing the United States abroad is 
becoming a more unified operation. It is becoming, in the names 
of Goldwater-Nichols, more purple, and everybody is kind of 
working to the same task; and I think that is a really positive 
thing and something that we ought to do all we can to 
encourage.
    Third point that I would just make is that I just wanted to 
say that the parents of your constituent, of Mr. Granville, I 
think hit the nail on the head. Before the hearing we were 
talking with the chairman. When I was the Ambassador to Turkey, 
1994 to 1997, I had people who would say to me--human rights 
officers, and they would say, I want to get out now and go out 
to Diyarbakir and spend a few weeks out among the people, and I 
would say, too dangerous; I can't talk to your parents if you 
get hurt or you get killed.
    But I would say, sir, that after 9/11, the level of 
requirement for the risk has gone up. So now, if I was the 
Ambassador to Turkey and I had somebody who was better trained 
and I had somebody who was, as Ambassador Pickering said, had 
someplace to fall back to, and I had some confidence that the 
mission, as with Mr. Granville, was of the highest priority, 
and then, God forbid, if somebody got hurt out there, I would 
be able to face their parents and say, yes, I did this. I took 
these precautions, but I made this decision based upon my 
analysis of the interest of the United States, and, yes, I took 
that risk and there was this challenge.
    So I think you make a very important set of points, and I 
appreciate the chance to comment on them.
    Mr. Tierney. Thank you very much, Ambassador.
    Anybody else you want to hear from on that, Mr. Higgins? I 
mean, that was a pretty complete conversation. If not, we will 
move on to Mr. Welch.
    Mr. Welch.
    Mr. Welch. Thank you.
    I thank each of you for being here. I have done a little 
bit of traveling in my 1 year and I am amazed at how wonderful 
our Embassy personnel are, and discouraged that we don't have 
more of them doing the job.
    Let me talk a little bit about training, because I think 
that obviously is extremely important.
    Ambassador Grossman, you have a lot of experience in this. 
What is it that we need to do, very concretely and 
specifically, in order to provide a level of training that will 
meet the current need for our diplomatic corps to be much more 
influential in our affairs?
    Ambassador Grossman. Thank you, sir. The most important 
thing that could be done right away would be to hire the 1,079 
people. And the reason I say that, Mr. Welch, is not to avoid 
the question of training, but to make this point. Every 
military unit that you can have an arrangement with has a 15 
percent float-for-training-in-transit, and that means that they 
are not stealing from the operational requirement, the 
readiness of that unit to have people get the training that 
they need either to do their current job or to do the job that 
they might be going on to.
    When Secretary Powell came to the State Department----
    Mr. Welch. No, I understand about the----
    Ambassador Grossman. Oh, I am sorry.
    Mr. Welch. I actually want to hear about--let's assume we 
hire those folks.
    Ambassador Grossman. That would be great.
    Mr. Welch. What do we need to do to train them?
    Ambassador Grossman. I think, first of all, that would be a 
great assumption. Thank you very much. I think there are three 
very important points. First of all, language training. There 
needs to be a fundamental commitment on the part of the 
Department, and I hope supported by the Congress, on language 
training. Second would be the use of new technologies to 
increase, enhance the capacity of our ability to deal with 
individuals around societies, and to get out among societies. 
And third, sir, would be security training, so that as we ask 
people to take more risk, to be out in societies, that they 
have the capacity to understand the things that they are 
looking at and protect themselves.
    Mr. Welch. Thank you very much.
    Ambassador Pickering, I have been to a couple of the big 
Embassies and my sense, in talking to young Embassy personnel, 
is that as much as the security precautions that are being 
taken are, maybe, necessary, they are causing them great 
frustration, because people--my sense--who go into the line of 
work that you have spent a lifetime doing really want to get 
out and want to interact, and to have to only go out when it is 
``mission critical'' sort of defeats the whole process of 
becoming--of building trust that a successful career diplomat 
has to do by kind of acceptance.
    And the frustration I have--and I would really be 
interested in your comments--is that we are kind of barricading 
our folks in and not letting them do their job, and it really 
means that foreign policy is much more politically driven by 
the necessities of whoever is in the White House, with 
diminishing significant input from folks who have devoted their 
careers to trying to get it right in these countries where we 
have interests.
    Ambassador Pickering. Mr. Welch, I agree with your 
conclusion and, indeed, some of the ramifications. Let me just 
add a few points.
    We all know that there are posts where we are locked in, 
and those are posts where we have ongoing battle, high security 
threat. And, obviously, it is up to the Ambassadors and the 
State Department to right-size those in light of the job and to 
recognize we have limited capacities.
    A friend of mine from the intelligence community said to me 
the other day that we in the intelligence community need more 
State Department insight, more State Department reporting, more 
State Department contacts. This was because, traditionally--and 
I think it is still true--about 80 percent of the intelligence 
base of the United States came from State Department reporting, 
open and classified.
    Mr. Welch. Right.
    Ambassador Pickering. And I think that is now missed. That 
is just one indicator of the value of being able to get out and 
understand what is going on.
    Wherever I worked, I attempted to encourage my officers to 
understand the opposition, to be in touch with the opposition, 
to know what they were thinking; to understand what currents of 
opinion were out there, what people were thinking in various 
areas. And it always seemed to me as just a factor of 
evaluation that you got twice as much value for an hour outside 
the Embassy as you did inside the Embassy, and that empowering 
people to do that.
    Russia was a huge country, 11 time zones. Travel was 
difficult. But we did everything we could to encourage people 
to travel, to know and understand what was going on across the 
vastness of that country as a way of understanding what kinds 
of things were motivating folks in the Kremlin and in the 
political sphere and in terms of the economy.
    So I agree with you.
    I think that, of course, policy is made in Washington, but 
the field must play what I would call nearly a determinative 
role in Washington's understanding of what is possible and what 
might be the options; and without that synergy it doesn't work. 
If the field is blind or half blind, the policy can turn out to 
be something like that and we have very significant issues.
    I would just like to address one other point. Our military 
friends, because they have the funds and the presence, are 
doing jobs that are very important, but which, over time, at 
least in terms of the detailed training, they were not brought 
up to do. I think they are doing it well. And I don't want to 
have this as a note of criticism. But I do believe that the 
people who spend their lives working on these missions need, 
obviously, to have the resources, the presence, the capability, 
so that it doesn't fall back on the military to have to do 
these jobs; that it is the partnership that Marc described to 
you; that we find a way to bring that together and to integrate 
it.
    And I would just add to Marc's comments. One of the 
training efforts ought to be to do integrated training, if I 
could put it this way, across the spectrum, so that people who 
need to work in the humanitarian area can be trained alongside 
our military colleagues who are going to have to face that 
question, so that through training and through doctrine they 
come out as a team, not basically as two separate stovepipes 
that only meet at the time of crisis. I think those are all 
important.
    And thank you for the chance to make those comments.
    Mr. Welch. Thank you, Ambassador.
    Mr. Tierney. Thank you, Mr. Welch and thank our witnesses 
on that.
    You know, I think that last point--we are going to have a 
second round of questions, and we may not all use our 5 
minutes, but we would like to ask some more questions.
    I think Secretary Gates--who we keep quoting over and over 
again--recognizes it as much or more than anybody, that the 
military's job is, in fact, not to be diplomats and not to be 
agricultural experts and not to be commerce experts and things 
of that nature. But they want to compliment that to the extent 
necessary. It is not always our best interest to have a 
military uniform out there as the projection of the United 
States. There are times we have to have the civilian presence 
so that people see us differently and know that we are looking 
to try to help them in ways that will move their country 
forward. So I would think that is very important, and I would 
disperse our money and how we align our personnel.
    What is the situation in the diplomatic corps right now 
with respect to diversity? Is our hiring process getting us the 
kind of diversity that we need? In many of these countries, 
even getting out and about, and trying to mingle with others 
would be far more complimented if we in fact had a diverse 
diplomatic presence.
    Mr. Naland, you probably can best comment on that.
    Mr. Naland. One of the main purposes of the Foreign Service 
Act of 1980, the revision in 1980, was to make the Foreign 
Service look more like America, and a lot of provisions were 
put in to start to do that. And Ambassador Grossman may be able 
to answer this better than I can, but over the years change has 
been slow, but the Foreign Service, both generalists and 
specialists, is increasingly looking more and more like 
America. And if you have spoken to any of the new entry level 
officer classes, you can see that. We have them over to the 
AFSA headquarters and on the wall would be a picture of a 
Foreign Service class of 1934--and you can imagine what that 
looks like--and then you have the new officers and specialists 
coming in.
    Now, there is a famous wealth of talent, and Hispanics, 
African-Americans and other are being courted--at least before 
the stock market crashed--being courted by Wall Street and a 
lot of other places, so we don't have--if you take whatever the 
target demographic is, the profile of U.S. college graduates, 
we are not on that demographic yet. But we are getting closer 
and closer to it.
    You know, the Foreign Service, it is in for some rough 
times right now. Every time we in the active Foreign Service 
raise our voice a little, there are a lot of people out there--
not Secretary Gates, but a lot of people out there who jump on 
it to say we are wimps or whatever, and that disturbs me a lot. 
There are some issues that need to be addressed. Staffing is 
one, this overseas pay gap is another----
    Mr. Tierney. Would you go into that a little bit, why that 
gap exists and exactly what it is?
    Mr. Naland. Well, in 1990, the Congress passed locality pay 
legislation that came into effect in 1994, and I guess State 
and AFSA were asleep at the wheel, because the overseas Foreign 
Service was excluded. So now a Federal Government employee in 
Washington, DC, gets base pay plus 20.89 percent. And 
everywhere in the continental U.S. Federal employees get base 
pay plus at least 13 percent.
    Mr. Tierney. And what does that 13 percent reflect?
    Mr. Naland. It is this convoluted idea of locality pay. It 
is the cost of attracting talent----
    Mr. Tierney. To the United States?
    Mr. Naland [continuing]. To Washington, DC, or Houston or 
San Francisco. That is why there are different locality pay. I 
didn't vote on this thing, so----
    Mr. Tierney. Everybody here will say that they probably 
didn't either.
    Mr. Naland. Everyone used to get base pay and that was kind 
of it, but then they put in locality pay. And it is not cost of 
living, it is some other thing.
    But the Central Intelligence Agency--if I can say those 
words--their people, if they have any overseas, get Washington 
locality pay. Other folks--who I can't even mention--if they 
are overseas, they get Washington locality pay. But the Foreign 
Service doesn't. And it is now a 21 percent gap.
    Now, yes, if you go to Baghdad, you are going to get a 
large danger pay differential, but 183 of our 286 posts you now 
take a pay cut to go to 183 of our posts. And if America wasn't 
a two-income Nation, that probably wouldn't be such a huge 
deal. But it is a two-income Nation. But in the Foreign 
Service--and the uniform military has this to some extent too--
our spouses often can't get a job in Lagos, Nigeria or 
Tajikistan. So our family income over a 30 year career takes a 
major hit, and retirement savings take a major hit. So having 
this 21 percent pay cut when you go overseas just adds insult 
to injury.
    Mr. Tierney. So is that an adverse impact on recruitment 
generally, as well as getting people to volunteer overseas or 
just on the volunteering overseas aspect?
    Mr. Naland. Sir, I don't think it has hurt recruitment yet, 
because, frankly, no one knows what they are getting into when 
they join the Foreign Service. And the State Department, 
certainly on their Web site, doesn't highlight this, although 
they do highlight the danger and other issues, which is quite 
extraordinary. There is a little 20 or 40 question pretest you 
can take to see if you are material for the Foreign Service, 
and I bet a lot of people take it and say, OK, something else, 
because there are some real challenges there.
    Mr. Tierney. Thank you.
    Mr. Lynch.
    Mr. Lynch. I would be remiss if I did not say how proud I 
am of our folks in the State Department and the wonderful work 
they are doing in some pretty dangerous places around the 
world. I think that they are a shining example of what is best 
about America, and I agree that they are underpaid for the work 
they are doing and that we need to figure out how best to train 
them and give them some more help.
    I would like to ask one question about assignment, and that 
is how are we handling now--Mr. Naland, maybe you would have a 
pretty good read on this. My understanding is that there is a 
pretty good rotation going on now in terms of folks that might 
want a shot at the Embassy in Paris instead of Baghdad. I know 
for a while there some folks would get reassigned to one place 
for multiple years, and that would sort of cause a logjam in 
the system, so that anyone new coming into the system had to 
pick, you know, Kenya or Somalia or some other place that was 
high risk versus having a chance at a somewhat more normal 
assignment maybe in a western European country. How is that 
being handled right now?
    Mr. Naland. Well, sir, what needs to be understood is that 
the normal assignment now is a hardship post. Two-thirds of the 
overseas Foreign Service posts are now hardship posts. Paris 
has been cleaned out repeatedly. James Baker cleaned it out to 
open up the Central Asian Embassies when the Soviet Union 
collapsed. Secretary Rice has cleaned it out to send people to 
India and other places. So the idea that Foreign Service 
members are all sitting around Paris and London is just 
absolutely no longer the case. In fact,--this is only a little 
facetious--to get there now, you basically have to serve in a 
provisional reconstruction team in Iraq and have one of your 
top five picks guaranteed, and that is how, after serving and 
surviving a year in Iraq, you can get a 3-year tour in London 
or Paris.
    But the Foreign Service has changed a lot. It is now mostly 
hardship posts. When I joined, I went to Bogota, which, with 
Beirut, was the only unaccompanied or limited accompanied post. 
Now we have something like 27 unaccompanied posts or limited 
accompanied posts.
    And then we have the staffing deficit. This whole Iraq 
fiasco from a couple months ago, the reason that they didn't 
automatically immediately have all the volunteers is just that 
there is a 21 percent staffing gap at the mid levels. And now 
Afghanistan--I don't know, this is probably not public, but 
there is an interest in providing more Foreign Service and 
other staffing for Afghanistan. But from where? From where? So 
we just need more people. And allegedly--or we will see with 
the President's budget request--apparently, the President's 
budget request next week will ask for a lot of those people. 
But my point of view is that the President's budget request a 
year ago asked for 254 or 256, I believe, additional Foreign 
Service positions that weren't funded. So, you know, please 
fund the additional positions to hire people to staff these 
places.
    Mr. Lynch. In yielding back my time, I just want to say I 
wasn't suggesting by any measure that folks were sitting around 
London or Paris. My question was more toward is the rotation 
system fair, so that some of our folks who are on those 
hardship assignments right now get a chance to rotate over time 
to something less perilous, I guess.
    Mr. Naland. I believe it is. The Foreign Service always 
takes care of people after they have done a hardship tour, in 
terms of their onward assignment, so I think we are still OK 
there. The truth is most Foreign Service members prefer the 
hardship tours because the morale is better there and the job 
is more exciting. My least favorite tour--and I don't want to 
hurt the feelings of the Ambassador from Costa Rica, but my 
least favorite tour was Costa Rica. It is a beautiful place if 
you have been there, but--and this was 20 years ago--it was 
just boring as all get out. And most Foreign Service people 
want the challenge. So, yes, if I could get London for 3 years, 
I might do it, but then I might not, I might want a hardship 
tour.
    Mr. Tierney. Thank you. The challenge, Mr. Naland, is going 
to see whether the President puts in for 1,079 new positions, 
which I think Ambassador Grossman said would be about $200 
million or less.
    Ambassador Grossman. Over 3 years, sir.
    Mr. Tierney. Over 3 years. And if he has percipacity to 
actually take it out of the defense budget of $700 billion, 
instead of just creating another $200 million somewhere. That 
would be a really interesting conversation for this country to 
have and for Congress to have. Don't hang by your thumbs 
waiting for it, however.
    Mr. Higgins.
    Mr. Higgins. Just on this new vision for diplomacy, you 
know, when you talk about the importance of language fluency, 
when you talk about cultural immersion, isn't that hard to 
achieve in the way that Foreign Service is currently 
structured? It seems as though people are kind of rotated on a 
pretty regular basis after a short period of time, and for one 
to become immersed in a culture, for one to develop a language 
fluency, I would think that reaching frequency and consistency 
is important.
    Ambassador Grossman. Yes, sir, both good questions. Let me 
answer in this way. First, one of the recommendations of the 
Commission was that as we train people in language and culture 
immersions, we find ways to move them out of Washington and 
send them to the country, maybe, for some months so that they 
might be able to really live with a family, be at a university, 
learn the language, learn the culture, because we do--in my 
view, anyway--much too much language training now only at the 
Foreign Service Institute. They do a great job, but, as you 
say, they need to be part of these cultures. I tried really 
hard, when I was the Ambassador to Turkey, to get Turkish 
language speakers for their last few months, even, to come and 
live in Turkey without jobs--their job was to get their 
language and become immersed.
    The second question is about--to go back a little bit to 
Mr. Lynch's question about rotation. The tension is this, is 
that somebody goes, let's say, to Turkey, having Turkish 
language training, and you leave them there 4 years or 5 years. 
It is human nature, after a while, Mr. Higgins, that they kind 
of forget who it is exactly that they are representing, and you 
have to break that. It is just human nature; it is not a 
criticism of anybody. But we are all subject to it.
    So my preference would be, as the Foreign Service does now, 
if you teach somebody Turkish or Chinese or Arabic, then you 
would like them to serve in a country where you can use that 
language maybe three or four times over their career. Maybe not 
sequentially, but over time. So we had a number of people in 
Turkey who were back for their third tour, for example, but it 
was broken up with a tour in Bogota or a tour in Prague. And I 
think that is healthy for human beings, is my observation, 
having been in the Foreign Service 30 years.
    Ambassador Pickering. Could I add a point there too, Mr. 
Higgins? Because I agree with what Marc has said and I think 
the State Department is attempting to do that, and that is 
shorter, but more frequent, tours in area of language 
specialization. But often those people come back to the United 
States and they serve in the bureaus of the State Department 
and they bring back that kind of knowledge, that ability in 
linguistics, and that informs the policymaking process in a way 
that I think is very important. And I think that it is rotation 
of Foreign Service officers that continues to enrich the State 
Department's ability to have a good perspective on and, indeed, 
a real feeling for what is the situation in that country and 
how and in what way policies can best be shaped to deal with 
it, as well as dealing with visitors from that country, foreign 
diplomats, foreign ministers coming here, who in fact expect to 
see that when they come.
    So I think it is a pretty good system, and it balances off 
this problem of local-itis, which Marc described. It balances 
off the problem of how do you make the best use of that 
individual.
    There are other things that have to happen, too. Too much 
focus, too much narrowness, even with rotational assignments, I 
think tends to produce people who have come up against a glass 
ceiling, and I think it is also valuable to give specialists in 
Turkey a little bit of a look at some other place, where 
different ideas, different approaches, different innovative 
ways of thinking about things could help them when they go back 
to Turkey. So I think all of those kind of rotational things 
are important.
    Admittedly, you have somebody in a place for 25 years--and 
some foreign services have done so--you may have the world's 
best expert on a very narrow feature of the landscape. But you 
may not make the best possible use of that individual and, 
psychologically, very few individuals are attuned, I think, to 
spending their lives in a 25 year assignment to wherever it 
might be. It is a little bit of the devil's island problem.
    Mr. Naland. Could I just briefly mention? This is in the 
CSIS report. We do have Foreign Service members who are posted 
in a country for 30 or 40 years. They are the Foreign Service 
nationals. And one of the many bad things that happened after 
9/11 was that some of the trust was taken back from Foreign 
Service nationals, where only cleared Americans now can do a 
lot of this stuff in the consulate. I am sure some of that is 
appropriate, but, moving forward, if we could give back some 
more authority to the trusted 30 year Foreign Service nationals 
who are cleared also, at least to the secret degree, I think 
that is something we ought to really work at, try to figure out 
how to do.
    Mr. Tierney. That is an excellent point and dovetails on 
what we were all talking about earlier, about the APPs. If you 
are going to have those, you are going to need foreign 
nationals to sort of buttress the individuals that you put in 
those facilities and help you with the intelligence and getting 
along with the culture. So we do have to move on that.
    Dr. Loeffler.
    Ms. Loeffler. Just one point picking up on the reference to 
the APP. If what the CSIS report says is true, and there will 
be a de-emphasis on the Embassy itself, or new ways of doing 
diplomacy, then that argues for rethinking the infrastructure, 
this really big permanent, very, very expensive 
infrastructure--the worst example being Baghdad, but similar 
and lesser examples--that we are doing around the world.
    Mr. Tierney. Absolutely.
    Ms. Loeffler. The Commission report says we should maintain 
the building program, but we don't know what that shape of that 
program should be.
    Mr. Tierney. They don't really mean that.
    Ambassador Grossman, would I be wrong to characterize the 
report that you think you ought to maintain the building 
program, but you are also amenable to some of the changes Dr. 
Loeffler and others have talked about in terms of size, in 
terms of materials, in terms of goal, placement, and all that?
    Ambassador Grossman. Absolutely right. The report says to 
maintain the building program, because that is a very important 
thing.
    Mr. Tierney. Keep building, just do it better.
    Ambassador Grossman. Yeah, with these considerations about 
openness and the environment and where they should be placed, 
and who decides.
    Mr. Tierney. Right.
    Ambassador Grossman. And very importantly, as well, as the 
report says, maintain those buildings.
    Mr. Tierney. I got the feeling that the Commission had 
actually read Dr. Loeffler's book.
    Ambassador Grossman. Well, as I said in my opening 
statement, we had the good fortune to consult with Dr. 
Loeffler.
    Ms. Loeffler. Thank you.
    Mr. Tierney. Mr. Welch, do you have any questions?
    Mr. Welch. Yes.
    There has been an emerging almost consensus that there has 
to be a merger between the military activity and the diplomatic 
activity, and they have to work hand in glove. Obviously, there 
has to be a fair amount of cooperation, but I would like to 
challenge that. You know, Iraq and Afghanistan are two special 
situations, but, by and large, the work around the world of 
trying to provide humanitarian assistance--and to the extent 
that the Embassies play a role in that and coordinate USAID 
activities--is, by definition, civilian, not military; and 
having people show up in work clothes, as opposed to a Humvee 
or an MWRAP, to a very rural village sends a totally different 
message.
    And what I am starting to hear is that with this turmoil in 
our country about how best to address Iraq, there is a mission 
creep that is being imposed on the military so that, in 
addition to them providing fighting terrorists and al Qaeda and 
insurgents, they are being asked, as we saw, to set up and run 
prisons, to set up and establish a judicial system. I met a 55 
year old career prosecutor from my hometown who is out there 
trying to set up a judicial system. We have captains in Ramadi 
who are trying to figure out how to get the trash collected out 
there. And that is the kind of mission creep that it is hard 
for me to see how that would be sustained the moment, when and 
if it ever comes, that we come home.
    But my question is whether it is really sensible to be 
acting as though your efforts--and I will ask you, Ambassador 
Pickering, because you probably have the most experience--
should be seen in that way, as essentially of an extension of a 
military policy--I will use Iraq as an example--of trying to 
win hearts and minds, where the State Department folks are an 
extension of that. That, in my view, has a significant negative 
impact in the long haul about what is the real work that folks 
like you do.
    Ambassador Pickering. Thank you, Mr. Welch, for raising 
that question, because I can see how an earlier comment I made 
might have been taken as a generic prescription for all foreign 
policy, as opposed to what it was supposed to be, which was a 
specific prescription in the areas where, for one reason or 
another, military and civilians have to interrelate; and I 
would say those are in a couple of cases. They are in the case 
of active war-fighting--Iraq and Afghanistan--which are at one 
edge, if you like, of the continuum.
    A little closer in is peacekeeping, the kinds of things 
that we have done in Bosnia and Kosovo, that we and other 
people are engaged in in many places in Africa--Sudan, the 
Democratic Republic of the Congo, and earlier in places like 
Liberia and Sierra Leone. And, to me, the point there is that 
you do need to have this interrelationship. You need to have 
the mutual support and you need to have the mutual 
understanding of how that works.
    More broadly, the interrelationship is what I would call 
less salient and less pointed in other places. Sure, our 
military are present in many Embassies and they relate to 
foreign military, and they do everything from training 
cooperation, to joint exercises, to mutual support in the 
intelligence area, to many other kinds of things. And here 
there is a different kind of need for civilian understanding 
and a different set of relationships, and that is more easily 
come by; it is more standard in our diplomatic practice, and I 
think in many ways less overwhelming in the sense that the 
military in the Embassies is sized to meet the mission. The 
mission isn't that they would run the foreign policy of the 
country at all.
    There are other kinds of areas in the campaign against the 
use of terror against us where obviously there needs to be more 
common understanding of what is happening, how it works and 
where it is going.
    So I can see several different cases that have to become 
part of the curriculum, rather than the standard, basically 
all-out major military effort that we are seeing in Iraq, and 
what I think has been the difficulty of the civilian side to 
support that: to mobilize; to find the right people; to train 
them; to have, in fact, military understand how and in what 
ways those two can go together; and how, in fact, a synergy 
coming out of that process can work.
    I would far rather have in as many places as possible the 
United States represented by a civilian mufti dressed 
individual, wherever that can be done, and I think it meets 
much more the concerns that we have of the growing antagonism 
toward the United States around the world, which I think is 
still borne out in the polling data, particularly in the 
Islamic world, that we need to find important ways to overcome, 
and one of those I think is not to make the military the 
spearhead.
    Now, I am a little concerned by the creation of AFRICOM and 
how----
    Mr. Welch. What?
    Ambassador Pickering. AFRICOM, which is a new military 
organization for Africa, and how it will fit, because it is an 
apparent possibility that they will see their role as 
basically--if I could put it this way--militarizing African 
policy. And I think we need to be aware of the fact that they 
can provide enormous support and terrific help, but the policy 
toward Africa needs to be civilianized and it needs to be 
broadly represented by a civilian.
    Not that the military does not have a portion of that, or a 
serious part to play in making that happen, often in helping 
with training, in preparing African units for peacekeeping 
responsibilities--and Africans have tried hard to step up to 
those in places like Darfur and elsewhere, but they have 
shortfalls--but there are vast parts of our policy in Africa 
that are not militarized, don't need to be militarized, and, in 
fact, we would carry a burden in Africa if we thought to convey 
the view that they are and will become militarized through 
AFRICOM.
    Mr. Welch. Thank you.
    Mr. Tierney. Thank you, Mr. Welch.
    Thank you, Ambassador. You hit on a note--I was just 
showing the staff here that I had written that down myself. We 
are contemplating having a hearing, in fact, on the AFRICOM 
mission because we have our own concerns as a committee that it 
has gone from being focused in one direction and maybe sliding 
over to the other, I think at great risk to us.
    Mr. Lynch and Mr. Welch, do you have any further questions?
    Mr. Welch. No, thank you.
    Mr. Tierney. Thank you.
    Mr. Lynch. No. Thank you, Mr. Chairman.
    Mr. Tierney. Let me simply just ask two last questions on 
that. One is, for the Ambassadors, with the growing variety of 
individuals that now find themselves located in our various 
Embassies, and particularly the large increase in military 
personnel there who answer probably to another commander other 
than the Ambassador, how are we going to get that so that the 
Ambassador has the right amount of authority to make the 
Embassy and all of the outreach from the Embassy really work 
effectively? Ambassador Pickering?
    Ambassador Pickering. I would say that we have, over the 
years, had the President designate for each Ambassador--
sometimes in a generic way; through a letter--what that 
Ambassador's authorities are. Some of these have morphed over a 
period of years, but, generally speaking, the situation is that 
unless combat operations are being undertaken by a combatant 
commander, the person who used to be called the unified 
commander or the commander in chief, one of the five major U.S. 
overseas responsible commanders, that the Ambassador had full 
authority. And I think that needs to be maintained.
    I think in your report, but certainly in other reports, 
Marc, it has been suggested that particular document be 
perfected and then incorporated at least in an Executive order, 
so it has the potential to continue from one President to 
another. This has been seen as a Presidential prerogative, an 
individual prerogative and has to be negotiated. Often, it 
takes 2 or 3 years and some Presidents, even in a 4-year term, 
haven't produced this magic letter.
    Mr. Tierney. Who are they negotiating with?
    Ambassador Pickering. It is usually negotiated with the 
White House by the State Department.
    Mr. Tierney. And it takes 4 years to get it done?
    Ambassador Pickering. But other agencies get engaged in it. 
But the effort is, obviously, since it has to be signed by the 
President and the State Department often proposes it, that is 
the negotiating channel for it. But it seems to me we are now 
ready for a standard document; that it ought to become part of 
the continuing aspect of U.S. regulatory law, if not basically 
congressionally enacted. But that is another step. But my 
recommendation would be that this document be perfected and be 
signed very early as an Executive order and be inherited from 
one administration to the next unless there are extremely valid 
reasons to change it. Now, that provides the legal basis.
    Then I think the second question is choosing Ambassadors. 
Now, I have served a number of times as Ambassador. My own 
feeling is that to exclude all political appointees is a 
serious mistake. But I do think that we have too many 
appointees--and I am not concerned at all about saying this--
who haven't measured up to the job, who have other training 
background and experience. And I am fond of saying that, 
obviously, we all know that the first job that was truly 
professionalized was brain surgery.
    So our Army folks did away with this after the Spanish-
American and Civil War. It is time, in my view, to take a look 
at a smaller percentage. And indeed, a serious candidate for 
the President of this country, when he was here in the Senate, 
suggested 10 percent was the right figure, not the current 33 
percent. My view is that makes a lot of sense, that allows a 
president to bring people of ability from outside the Foreign 
Service.
    We also, I think, need to be cautious and careful about the 
Foreign Service officers we choose. We haven't always had 100 
percent success rate, but I think the success rate is higher. I 
think more training for Ambassadors is well recommended, 
particularly those who come in from the outside. A 2-week 
training course is not sufficient to be able to do that. And I 
think all of those would be helpful in making the point that in 
most places around the world we have civilian activities.
    I would finally say that if we are successful in this in 
every place around the world, we will not have to use combatant 
commanders to carry out our national security and foreign 
policy, because diplomacy can provide that first line--if I can 
call it--of action. I don't like to say defense because 
diplomacy is offensive as well. The first line of action has to 
be diplomacy. And I think with successful diplomacy we have, in 
the past, avoided conflicts.
    I would finally say--and I say in my report to you--that it 
needs to be backed up by the best military in the world. So I 
don't think that in any way we are going to try to reconfigure 
the balance; we just hopefully can use the diplomacy more 
effectively and the Embassies more effectively to carry that 
out.
    Mr. Tierney. Thank you.
    You have something to add to all that? Go ahead.
    Ambassador Grossman. Yes. I was going to add one sentence. 
Just to prove the fact that we were trying to find out the 
practicalities of the Embassy feature, one of the things that 
was very important that we recommended was to put the 
Ambassador in the chain of performance evaluation for all of 
the people who are represented at the Embassy.
    Mr. Tierney. That would make sense. Thank you.
    Dr. Loeffler, let's have you have the last word, since we 
started off talking about buildings on that. We have created 
some new courthouses around this country, Federal courthouses 
that are both, I think, unique in their architecture, but 
somehow always manage to take care of security issues. Your 
last comments on how we can do that, how the two are not 
necessarily at odds with each other, that we can have security 
and we can have architecture that works?
    Ms. Loeffler. Well, the GSA program has shown that, that it 
is possible, and we hope that the State Department can learn 
from GSA. GSA still has a panel of advisors, architectural 
advisors. They hire individual architects for individual 
projects; let them bring their creativity and know-how and 
engineering and design skills to the projects; and we have 
wonderful solutions, such as the courthouse in Boston or the 
courthouse in Phoenix or the courthouse in San Francisco.
    So I hope that we can take some tips from the GSA program 
and see if we could apply some of that know-how to the building 
program. This is a time of opportunity for that building 
program with a no director at the present and a new one to be 
obviously appointed, so new direction is on the horizon.
    Mr. Tierney. Thank you. And I note that on January 22, 2008 
there was a letter from the executive vice president and the 
chief executive officer of the American Institute of Architects 
to Secretary Condoleezza Rice making those recommendations 
exactly on that, and I would ask that be entered on the record. 
Without objection, it is.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7996.037
    
    Mr. Tierney. I want to thank all of our expert witnesses 
here today. Your experience has been invaluable to us. Your 
comments were deep and insightful, and we hope that we are 
going to continue on. We will get a debriefing later on from 
what legislation might be necessary. I suspect there may not be 
a lot of legislation, but more appropriation, as well as just a 
way to help the administration work its way through some of 
these broad details on that.
    Thank you all very, very much for your time and for your 
knowledge.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
